                                    SOCIAL SECURITY
MEMORANDUM

Date:   January 28, 2003                                                                 Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Performance   Indicator Audit: Wage Reporting (A-15-02-11087)


        We contracted with PricewaterhouseCoopers (PwC) to evaluate the data used to
        measure 18 of the Social Security Administration’s performance indicators established
        to comply with the Government Performance and Results Act. Attached is the
        final report that presents the results of two of the performance indicators PwC reviewed.
        The objective of this audit was to assess the reliability of the data used to measure the
        percent of wage items posted to individuals’ records by September 30 and percent of
        employee reports (W-2s) filed electronically.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                        James G. Huse, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION




   PERFORMANCE INDICATOR
          AUDIT:
      WAGE REPORTING


  January 2003   A-15-02-11087
                                    Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.


                                   Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:


  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.


  To ensure objectivity, the IG Act empowers the IG with:


  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.


                                     Vision

By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
MEMORANDUM

To:                  Office of the Inspector General

From:                PricewaterhouseCoopers LLP

Date:                January 3, 2003

Subject:             Performance Indicator Audit: Wage Reporting (A-15-02-11087)


The Government Performance and Results Act (GPRA) of 19931 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity set forth in its budget.2
GPRA also calls for a description of the means employed to verify and validate the
measured values used to report on program performance.3 The objective of this audit
was to assess the reliability of the data used to measure the following Fiscal Year
(FY) 2002 GPRA performance indicators:

Performance Indicator                                                          FY 2002 Goal

    1.   Percent of wage items posted to individuals’ records by               98%4
         September 30

    2.   Percent of employee reports (W-2s) filed electronically               30%5

See Appendix A for a description of the audit scope and methodology.

BACKGROUND
SSA offers retirement and long-term disability programs to the general public. Old-Age,
Survivors, and Disability Insurance (OASDI) is authorized under title II of the Social
Security Act (Act)6 and includes Retirement and Survivors Insurance and Disability
Insurance. Through the OASDI program, eligible workers and sometimes their family
receive monthly benefits if they retire at an appropriate age or are found to have a

1
    Public Law No. 103-62, 107 Stat. 285.
2
    31 U.S.C. 1115 (a) (4).
3
    31 U.S.C. 1115 (a) (6).
4
 Social Security: Performance Plan for Fiscal Year 2003, Revised Final Performance Plan for Fiscal Year
2002, page 90.
5
    Ibid, page 91.
6
    42 U.S.C. 401 et seq.


Performance Indicator Audit: Wage Reporting (A-15-02-11087)
disability that either prevents them from engaging in substantial gainful activity for at
least 12 months or can be expected to result in death.7 Supplemental Security Income
(SSI) is authorized under title XVI of the Act and provides monthly payments to aged
and disabled individuals based on financial need and medical requirements.8

A key factor in determining eligibility for title II and title XVI claims is an individuals’
earnings record. The Earnings Record Maintenance System (ERMS) is the major
system used to post earnings. It accepts and processes wage data from employers and
self-employed individuals from a variety of data types including paper, magnetic media,
and electronic submission. Upon receipt, ERMS performs validation and edit checks on
the record and posts each individuals’ earnings to the Master Earnings File (MEF).
When ERMS is unable to validate a name/Social Security number combination, it posts
the record to the Earnings Suspense File (ESF). Approximately one percent of all wage
items are posted to the ESF. ERMS data is extracted to a number of management
information data stores for further reporting.

For FY 2002, SSA developed three performance indicators related to this process for its
Annual Performance Plan (APP). This report reviews two of these performance
indicators. Performance indicator #1 measures the percent of earnings posted to
individuals’ records by September 30. SSA uses the Earnings Posted Overall Cross
Total/Year-to-Date (EPOXY) system to capture and report this data. EPOXY produces
a weekly report that provides information on the number of records posted. The
performance indicator is calculated by dividing the number of records posted to the MEF
before September 30 by the total number of records posted to the MEF for the same
tax year (TY).

Performance indicator #2 measures the percent of employee reports (W-2s) filed
electronically. SSA defines electronic filing of wage reports as any submission of W-2's
digitally over the internet. SSA uses the Earnings Management Information Operational
Data Store (EMODS) system to capture and report this data. EMODS provides a report
that details all employers’ W-2 summaries (W-3s) and the method in which it was
submitted to SSA. The performance indicator is calculated by dividing the number of
W-2s submitted electronically by the total number of W-2s submitted for the same TY.

Throughout the year, SSA projects an estimated count of W-2s in order to calculate a
running percentage for the performance indicators. The annual estimated W-2s is
determined through the Office of Research, Evaluation and Statistics and the Office of
the Actuary. Once the actual amounts are determined in the following year, SSA
updates the performance indicator data accordingly.




7
    42 U.S.C. 423 (d)(1).
8
    42 U.S.C. 1381 et seq.


Performance Indicator Audit: Wage Reporting (A-15-02-11087)                          2
RESULTS OF REVIEW
We reviewed the reliability of the data used to measure the percent of records posted to
individuals’ records by September 30. In addition, we reviewed the reliability of the data
used to measure the percent of W-2s filed electronically. We used TY 2000 data for
both performance indicators since TY 2001 data was not available at the time of our
review. Since TY 2000 data is reported during FY 2001, we compared our results to
SSA’s FY 2001 performance indicator data. We determined that data for performance
indicators #1 and #2 was reliable and reasonably stated.

We also reviewed each performance indicator to determine if it was an appropriate
GPRA measure. Although we determined that these performance indicators were
appropriate measures, we found that SSA did not develop any performance indicators
to address the ESF. The ESF was identified as one of ten major management issues
facing SSA.

PERFORMANCE INDICATOR #1 DATA WAS RELIABLE

We evaluated the percent of wage items posted to individuals’ records by September 30
for TY 2000. We tested this data by analyzing a random sample of approximately
13 million records from a total population of over 250 million records. Our sample
represented approximately one-twentieth of the items posted to the MEF in TY 2000
and our margin of error was .006 percent. We reviewed the posting data of each record
in our sample and determined that 98.6 percent of the records were posted before
September 30. Our audit substantiated the reliability of SSA’s data reported in the
EPOXY reports and confirmed that SSA met its FY 2001 APP goal of 98 percent.

PERFORMANCE INDICATOR #2 DATA WAS RELIABLE

We evaluated the percent of W-2s filed electronically for TY 2000. We tested this data
by reviewing all employers’ W-3s submitted for that year. We determined that
27 percent of W-2s were submitted electronically for TY 2000. We compared our
results to SSA’s reported results and found any differences in the counts to be
immaterial. Our audit substantiated the reliability of SSA’s data reported in the EMODS
report and confirmed that SSA met its FY 2001 APP goal of 20 percent.

OTHER MATTERS

We also evaluated each performance indicator within the context of SSA’s APP. While
we found that these performance indicators were appropriate measures, we noted some
areas for improvement.

In January 2001, SSA issued a report on its major management challenges and
specifically cited the ESF. Between TY 1937 and 1999 the ESF has grown to
approximately $333 billion in wages representing approximately 227 million wage items.
The APP cites the ESF as a key initiative and highlights a number of individual projects

Performance Indicator Audit: Wage Reporting (A-15-02-11087)                        3
to address this issue. However, the APP does not offer any performance indicators to
measure SSA’s progress in reducing the ESF. SSA should develop performance
indicators that address this issue.

Additionally, we found that performance indicator #1 was inadequately defined. The
performance measure is defined as “…the number of prior tax year wage items posted
by the end of September, divided by the number of prior tax year wage items posted by
the end of the processing year.” Although technically accurate, this definition can be
misleading to the public. This performance indicator is calculated by using data from
the MEF only. It disregards records posted to the ESF. SSA should change the data
definition to read “…the number of prior tax year wage items posted to the MEF.”
Additionally, it should include a concise definition of the MEF and the ESF.

CONCLUSIONS AND RECOMMENDATIONS
We found that the data used by SSA for performance indicators #1 and #2 were reliable
and reasonably stated. We found that SSA had adequate controls and documentation
regarding both performance indicators. In addition, we found that the performance
indicators were appropriate GPRA measures although we identified some areas for
improvement. Our recommendations are as follows:

1. Develop performance indicators to address the ESF

The ESF is a significant management challenge for SSA. Additional performance
indicators should be developed to address this issue. This will enable SSA to measure
the results of key initiatives related to the ESF over a period of time.

2. Provide a more concise description of performance indicator #1

SSA should clearly specify the data definition for performance indicator #1. Additionally,
SSA should provide a more thorough description of the earnings posting process.


AGENCY COMMENTS

SSA agreed with our recommendations. They plan to add a performance indicator for
reducing the size of the ESF in its FY 2004 AAP (Recommendation 1). SSA also plans
to modify the definition for performance indicator #1 (Recommendation 2). The full text
of SSA’s comments can be found in Appendix D.

PWC RESPONSE

The Agency plans outlined in their comments are responsive to the issues we identified
and, when fully implemented, should satisfy the recommendations.



Performance Indicator Audit: Wage Reporting (A-15-02-11087)                        4
                                            Appendices
APPENDIX A – Scope and Methodology
APPENDIX B – Flowcharts and Descriptions
APPENDIX C – Acronyms
APPENDIX D – Agency Comments




Performance Indicator Audit: Wage Reporting (A-15-02-11087)
                                                                   Appendix A
Scope and Methodology
We conducted this audit to examine two performance indicators related to the Social
Security Administration’s (SSA) wage reporting process. We verified the underlying
data and calculations for performance indicators #1 and #2 and reviewed its’ controls
and documentation. Our audit was performed from May 1, 2002 through
August 1, 2002 as follows:

   ·   Reviewed related reports from the Earnings Posted Overall Cross Total/Year-to-
       Date (EPOXY) and Earnings Management Information Operational Data Store
       (EMODS) systems.
   ·   Determined appropriate sample size, obtained sample for Tax Year (TY) 2000,
       and calculated the margin of error for performance indicator #1.
   ·   Recalculated data for performance indicator #1 based on sample size and
       compared to reported results.
   ·   Obtained annual wage reporting data for performance indicator #2 for TY 2000.
   ·   Determined counts for all submission types and recalculated data for
       performance indicator #2.
   ·   Compared recalculated results with reported results for performance indicator #2.

In conducting this audit, we also:

   ·   Reviewed SSA’s Performance and Accountability Report for Fiscal Year
       (FY) 2001, SSA’s Annual Performance Plan for FY 2001, and SSA’s Revised
       Performance Plan for FY 2002 to determine related milestones, definition, and
       data source for each performance indicator.
   ·   Reviewed Government Performance and Results Act (GPRA) and related Office
       of Management and Budget circulars and ensured that performance indicators
       conformed to GPRA guidelines.
   ·   Interviewed the respective project team for each performance indicator to gain an
       understanding of the data, the process to calculate the data, and any related
       reporting processes.

   Our audit was limited to testing at SSA’s Headquarters in Woodlawn, Maryland. The
   procedures we performed were in accordance with the American Institute of Certified
   Public Accountants’ Statement on Standards for Consulting Services and the
   General Accounting Office’s Government Auditing Standards (“Yellow Book”) for
   performance audits.




Performance Indicator Audit: Wage Reporting (A-15-02-11087)
                                                              Appendix B
Flowcharts and Descriptions




Performance Indicator Audit: Wage Reporting (A-15-02-11087)
Earnings Record Maintenance System

         Paper R eport
          Proc es s ing


                                            R aw data             I s data an
                                                                                                                             I s dat a v alid as
        Magnet ic Media                  f orm atted into         em ploy er         No                                                               No     Validated agains t
                                                                                             Validated agains t               t o N U MI D EN T?
         Proc es s ing                  c om m on f orm at          report?                                                                                      Sus pens e
                                                                                                 NUMIDENT
                                                                                                                                                             R eins t at em ent F ile


          O nline W age                                              Y es                                                          Y es
       R eporting Sy s tem


                                                                 A rec ord is
       S elf -Em ploy m ent                                                                                                    I s dat a Self                  Is dat a v alid as
                                                                opened on t he                                 1    Y es                              Y es
       Inc om e Proc es s                                                                                                     Em ploy m ent ?                   t o Sus pens e?
                                                                    ECDB



                                                                                                                                    No                                No

                                                                                                                           Em ploy er data (W -
         Paper R eport s                                          D is patc her                                             3s ) are rev iewed
                                            I s error                                            D oes dat a                                                 D at a is f lagged as
        s ent t o W BD O C    No                                 ev aluat es t he    No                                    f or v alidit y agains t
                                         c orrec t able?                                          m at c h?                                                         inv alid.
         - EALAR D f ile                                      error c odes giv en.                                            Em ploy ee data
                                                                                                                                  (W -2s ).


                                               Y es                                                 Y es
                                   No

                                                                                            The proc es s ed W -3          Pre-Pos ting D ata
        Magnet ic Media                      Sent to
                                                                                             and W -2 reports               produc es SSA
         ret urned t o                  c orrec t ion orbit         C orrec ted?     Y es
                                                                                             are ref orm atted if              t rus t f und
          preparer                             f ile.                                                                                                          Pos t ed t o MEF
                                                                                                nec es s ary .             ac c ounting dat a.




       E C D B is updat ed

                                                                         No                                                          1
                                                                                                 W ritten to
                                                                                                 S us pens e




                                                                                                                             Epox y reports
                                                                                                                            prov ide data on                    MI D at abas e
                                                                                                                              wage dat a                         is updated
                                                                                                                               rec eiv ed                           daily




Performance Indicator Audit: Wage Reporting (A-15-02-11087)                                                                                                  B-1
Earnings Record Maintenance System Process:
   ·   Earnings records are received in various formats: Paper, Magnetic media, Online, and self-employment records from the IRS.
   ·   The data is formatted into a common format.
   ·   If the data is employer data, a record is opened in the Employer Control Database (ECDB).
   ·   All records are validated against the NUMIDENT system.
   ·   Data that is not valid against the NUMIDENT system are validated against the Suspense Reimbursement file.
   ·   Data that is not valid against the Suspense file are flagged as invalid.
   ·   If record is self-employment data, it is sent directly to Pre-Posting.
   ·   All other data is sent to employer/employee validation.
   ·   If the employer and employee data do not match, they are assigned an error code for review by a dispatcher.
   ·   The dispatcher evaluates the errors associated with records that did not pass the employer/employee validation.
   ·   Records that cannot be corrected are sent back to the Wilkes-Barre Data Operation Center for research if they were received
       in paper form. Records received through magnetic media are returned to sender to be reprocessed.
   ·   If the records can be corrected, they are sent to a correction orbit file where they are fixed.
   ·   The ECDB is updated for the any files that are dispatched.
   ·   Data that has not been sent back to its source to be reprocessed are reformatted and sent to Pre-Posting and posted to the
       master earnings file if valid. If the data is invalid, it is sent to the suspense file.
   ·   A Management Information (MI) database is updated daily.
   ·   The MI database generates EPOXY reports that summarize wage data received.




Performance Indicator Audit: Wage Reporting (A-15-02-11087)                                                          B-2
Annual Wage Reporting (percent of W-2s filed electronically)




Wage data is sent
 to SSA in paper
     f ormat.




 Wage data is sent
                           Media f ield is f illed                                 Is Numident
 to SSA v ia direct                                       Is data
                            labeling the type                             Yes          data         Yes
    connect or                                           complete?
                           of media received                                      identif iable?          Data is posted to MEF
     Internet


                                                                                       No
                                                            No

                                                                                                                                        EMODS reports
                                                                                                              MI Database               prov ide data on
 Wage data is sent                                      Wage data is
to SSA in magnetic                                                                                             is updated               wage data f iled
                                                     returned to sender         Data is posted to                                        electronically.
     f ormat.                                                                                                     daily
                                                                                   Suspense




Performance Indicator Audit: Wage Reporting (A-15-02-11087)                                                                       B-3
Annual Wage Reporting (percent of W-2s filed electronically) Process:

   ·   Wage data is sent to Social Security Administration in paper format, electronically via the Internet or Direct Connect, or in
       magnetic media format.
   ·   Each record is assigned a media code that identifies the format in which it was received.
   ·   If the data is not complete, the information is returned to the sender and removed from the Annual Wage Reporting system.
   ·   Complete data is validated against the NUMIDENT.
   ·   If the data is not valid against the NUMIDENT, the record is posted to Suspense.
   ·   If the data is valid against the NUMIDENT, the record is posted to the MEF.
   ·   An MI database is updated daily with information containing data posted to the MEF and Suspense.
   ·   The MI database generates EMODS reports that provide a count of wage data sent electronically.




Performance Indicator Audit: Wage Reporting (A-15-02-11087)                                                            B-4
                                                                 Appendix C
Acronyms
APP           Annual Performance Plan
ECDB          Employer Control Database
EMODS         Earnings Management Information Operational Data Store
EPOXY         Earnings Posted Overall Cross Total/Year-to-Date
ERMS          Earnings Record Maintenance System
ESF           Earnings Suspense File
FY            Fiscal Year
GPRA          Government Performance and Results Act
MEF           Master Earnings File
MI            Management Information
OASDI         Old Age, Survivors and Disability Insurance
OMB           Office of Management and Budget
SSA           Social Security Administration
SSI           Supplemental Security Income
TY            Tax Year




Performance Indicator Audit: Wage Reporting (A-15-02-11087)
                                                              Appendix D
Agency Comments




Performance Indicator Audit: Wage Reporting (A-15-02-11087)
                                 SOCIAL SECURITY


MEMORANDUM



Date:     December 23, 2002                                              Refer To:   S1J-3

To:       James G. Huse, Jr.
          Inspector General

From:     Larry Dye /s/
          Chief of Staff

          Office of the Inspector General (OIG) Draft Report, "Performance Indicator Audit: Wage
Subject   Reporting” A-15-02-11087
:


          We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
          content and recommendations are attached.

          Staff questions may be referred to Laura Bell on extension 52636.

          Attachment:
          SSA Response
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "PERFORMANCE INDICATOR AUDIT: WAGE REPORTING
(A-15-02-11087)

Thank you for the opportunity to comment on the draft report. We are pleased that your
review found that the data used for both performance indicators was reliable and
reasonably stated. Below are our responses to the specific recommendations. We are
also providing a technical comment that should be included in the final report.


Recommendation 1


Develop performance indicators to address the Earnings Suspense File (ESF).


SSA Comment


While it is true that the Agency’s Annual Performance Plan (APP) does not contain
specific measures for the ESF which has been identified as one of the agency’s
management challenges, the plan does include an informative discussion of our means
and strategies to address the ESF. We plan to include performance indicators for
reducing the size of the ESF in our fiscal year (FY) 2004 APP. However, we are unable
to cite specific goals at this time because both the final FY 2004 APP and the Strategic
Plan are still under development.


Recommendation 2


Provide a more concise description of performance indicator #1.


SSA Comment


We agree. The data definition should read "the number of prior tax year wage items
posted to the Master Earnings File.” We will use the new definition language in future
APP documents.
Technical Comments


On page 3, third paragraph, replace the third sentence with the following:


“Our sample represents approximately one-twentieth of the items posted to the MEF in
TY 2000.”
                   Overview of the Office of the Inspector General

                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
